                            TABLE OF CONTENTS
Introduction ......................................................................................................................1
    Background ...............................................................................................................................1
    Objective and Methodology....................................................................................................2

Results in Brief .................................................................................................................3

Directives and Findings..................................................................................................5
    Directive 1 – Deputy Assistant Secretary for Law Enforcement and Security.................5
    Directive 2 – Emergency Protocols and Procedures ............................................................5
    Directive 3 – Office of Law Enforcement and Security Staffing.........................................6
    Directive 4 – Law Enforcement Policies ................................................................................7
    Directive 5 – Budget Coordination.........................................................................................7
    Directive 6 – Senior Bureau Law Enforcement Directors ...................................................8
    Directive 7 – Line Authority for Special Agents ..................................................................8
    Directive 8 – Non‐Law Enforcement Manager Accountability..........................................9
    Directive 9 – Line‐Item Budgeting .........................................................................................9
    Directive 10 – Office of National Drug Control Policy Funding......................................10
    Directive 11 – Staffing Models and Methodologies ...........................................................11
    Directive 12 – Staffing Shortages Impact on Officer Safety ..............................................12
    Directive 13 – Seasonal and Collateral Duty Officers........................................................13
    Directive 14 – Security Policy and Oversight .....................................................................14
    Directive 15 – Main Interior Building Security Management ..........................................14
    Directive 16 – Bureau Security Managers ...........................................................................15
    Directive 17 – Emergency Preparedness .............................................................................16
    Directive 18 – Internal Affairs Investigations .....................................................................16
    Directive 19 – Incident Reporting.........................................................................................17
    Directive 20 – Law Enforcement Workforce Diversity......................................................18
    Directive 21 – Background Investigation Process ..............................................................19
    Directive 22 – Training for Law Enforcement Officers .....................................................19
    Directive 23 – Centralized Records System ........................................................................20
    Directive 24 – Performance Goals ........................................................................................21
    Directive 25 – Interagency Cross Delegation Agreement .................................................21

Conclusion.......................................................................................................................22

Appendices......................................................................................................................24
    Appendix 1 – Status of the Secretary’s Directives..............................................................24
    Appendix 2 – Office of Law Enforcement and Security Organization Chart ................25




                                                                          ‐ i ‐ 
                       INTRODUCTION
This report presents the results of our second follow‐up review on the
Department’s progress in implementing the Secretary’s July 2002 directives for
law enforcement reforms.



Background

In March 2001, at the request of the Secretary, we conducted an assessment of the
Department of the Interior’s law enforcement activities, including the following
programs:
   • Bureau of Indian Affairs (BIA)
   • Bureau of Land Management (BLM)
   • Bureau of Reclamation (BOR)
   • Fish and Wildlife Service (FWSLE)
   • National Park Service (NPS)
   • National Wildlife Refuge System (NWRS)
   • U.S. Park Police (USPP)

Our January 2002 assessment report, Disquieting State of Disorder: An Assessment
of Department of the Interior Law Enforcement, contained 25 recommendations to
improve the leadership, organization, control, and accountability of Department
law enforcement programs.

In July 2002, in response to our report, the Law Enforcement Review Panel
(Review Panel), created by the Secretary, issued a report titled Law Enforcement at
the Department of the Interior, Recommendations to the Secretary for Implementing Law
Enforcement Reforms. The Secretary approved the Review Panel’s report and
directed that the report’s recommendations be implemented.

In 2003, we conducted a follow‐up assessment to determine the progress the
Department’s Office of Law Enforcement and Security (OLES) and the Bureaus
had made implementing the Secretary’s directives. We concluded that OLES and
the Bureaus had made limited progress in the timely implementation of
corrective actions. We also noted that serious efforts were required to fully
implement all of the directives.



                                            ‐ 1 ‐
Objective and Methodology

The objective of this review was to evaluate Department law enforcement
programs on their current progress and level of implementation of the
Secretary’s directives for law enforcement reform. To accomplish our objective,
we interviewed law enforcement, security, and emergency management officials,
from both the Bureaus and OLES, as well as officials from the Solicitor’s Office.
We also reviewed numerous reports and documents.

Using the information obtained through interviews and document reviews, we
rated the implementation status of each directive into one of three categories:

   •   Implemented – Actions taken have fulfilled the intent of the directive.

   •   Moderate Progress – Actions taken demonstrate continued movement
       towards full implementation of the directive.

   •   Inadequate Progress – Actions taken have substantially failed to
       adequately address implementation of the directive.

Our review was limited to determining the level of compliance that the
Department and Bureaus have made towards implementing these directives. We
did not assess the effectiveness of the programs we reviewed. We conducted our
review in accordance with the President’s Council on Integrity and Efficiency
Quality Standards for Inspections.




                                           ‐ 2 ‐
                    RESULTS IN BRIEF
The Department and the Bureaus have continued efforts in improving their law
enforcement programs and have successfully implemented a number of the
Secretary’s directives for law enforcement reform. However, as we noted in our
2003 progress report, the pace of implementing these directives remains slow.
Nearly four years after the directives were issued, the Department and Bureaus
continue to struggle with their implementation.

The Department has staffed OLES with dedicated and experienced law
enforcement personnel led by a Deputy Assistant Secretary. The office has
become the intended single point of contact for Department officials as well as a
clear advocate for Bureau law enforcement, security, and emergency
management programs. The Bureaus have successfully installed senior level
managers in their respective law enforcement programs and created line
authority for special agents. These accomplishments are all steps toward
improving coordination and accountability within these programs.

Although well intentioned, OLES continues to struggle with its fundamental role
involving policy and oversight of Bureau law enforcement, security, and
emergency management programs. Despite its growth, critical elements of
recommended functions of the office remain unaddressed. Program oversight
and compliance reviews are seldom if ever done. Department‐wide law
enforcement policies are tied up in bureaucratic delay with no discernable sense
of urgency to address the issue by senior Departmental management. The
establishment of the internal affairs program has been lackluster and the internal
affairs supervisory position remained vacant for an extended period of time.

Some of the Bureaus’ actions appear to demonstrate a sense of reluctance to
complete full implementation of a number of directives. For example,
accountability of non‐law enforcement managers supervising law enforcement
positions has not been sufficiently addressed. Some Bureaus have not yet
established necessary staffing models. While NPS has met the requirements of
installing an internal affairs program and direct reporting for special agents, both
programs are reported to be managed ineffectively and are described as being in
the process of imploding.

We did not evaluate if the Department or Bureaus effectively implemented these
directives. We intend to conduct in‐depth reviews of various Departmental law
enforcement programs to determine whether the implementation of these
                                           ‐ 3 ‐
directives resulted in improved law enforcement operations.

Continuous efforts by the Department and Bureaus will be required in order to
establish and maintain effective law enforcement operations as the Secretary’s
directives intended. Even those directives that have been fully implemented will
need to be continually evaluated and revised as needs change.

Overall, the results of our follow‐up review show progress. Nevertheless, the
inability to fully implement more than half of the directives over the last four
years dampens any celebratory enthusiasm on progress to date, and suggests the
focus of the reform may have become blurred – or perhaps misdirected.


                Level of Progress toward Implementing Directives

             100%
                     17%                     20%           20%
                                                                       29%
                               33%
                                      43%
              75%
                     44%                                         75%

                                                                              100%
              50%
                                             80%           80%
                                                                       71%
                               67%
                                      57%
              25%    39%
                                                                 25%


               0%
                    OLES   BIA       BLM    BOR FWSLE NPS NWRS USPP

                 Implemented         Moderate Progress            Inadequate Progress




                                                   ‐ 4 ‐
         DIRECTIVES AND FINDINGS

          THE DEPARTMENT SHOULD CREATE A NEW CAREER LEVEL DEPUTY
          ASSISTANT SECRETARY FOR LAW ENFORCEMENT AND SECURITY (DAS‐
   1      LES), REPORTING DIRECTLY TO THE ASSISTANT SECRETARY FOR POLICY,
          MANAGEMENT AND BUDGET (PMB).


The Department established the DAS‐LES position and Mr. Larry Parkinson has
been in the position since July 2002. The DAS‐LES position reports to the
Assistant Secretary for PMB.
                                                      IMPLEMENTATION STATUS
                                                             Implemented



          DAS‐LES, IN CONSULTATION WITH THE BOARD OF ADVISORS, DRAFT
   2      AND CODIFY THE PROTOCOLS AND PROCEDURES FOR EMERGENCY
          DEPLOYMENT EFFORTS.



The Secretary delegated the DAS‐LES with the authority to allocate Department
law enforcement resources during national emergencies, catastrophic/critical
incidents, and other situations through Secretarial Order 3249, which was signed
on September 5, 2003. Secretarial Order 3249A1, signed on December 21, 2005,
extends that authority to January 31, 2007. Emergency management protocols
and procedures have been codified in Part 900 of the Departmental Manual,
which became effective on January 4, 2006.
                                                       IMPLEMENTATION STATUS
                                                              Implemented




                                          ‐ 5 ‐
          OLES SHOULD BE STAFFED WITH DEDICATED AND EXPERIENCED LAW
          ENFORCEMENT PERSONNEL. THE REVIEW PANEL RECOMMENDS THE DAS

   3      DEVELOP A STAFFING MODEL THAT MEETS THE NEEDS OF THE OFFICE.
          DETAILED PERSONNEL FROM THE BUREAUS SHOULD PLAY AN INTEGRAL
          ELEMENT OF THE OFFICE’S STAFFING MODEL.



OLES has grown from 6 employees in 2001 to a current staff of 37 with an
additional 8 vacant positions (Appendix 2). OLES has filled its positions with
permanent full‐time Departmental employees and detailees from most Bureau
law enforcement agencies. We were told by both OLES and the Bureaus that
detailees have played an integral part in the advancement of the OLES
organization as well as the development and implementation of policies and
guidance for Bureau law enforcement, security, and emergency operations.

While OLES has been able to achieve growth in staffing, the intended functions
of some critical positions have not been carried out. We were told that
Homeland Security duties and responsibilities have continued to detract from
law enforcement and security program needs and oversight. For example, our
original assessment stressed the criticality of monitoring Bureau law enforcement
programs for compliance with policies and procedures. However, OLES has
been unable to proactively conduct compliance reviews of Bureau law
enforcement and security programs due to these other priorities.

Of OLES’ 37 employees, 20 are dedicated to the Watch Office, intelligence
functions, and border and drug coordination. While we recognize that OLES’
workload has increased as a result of many new government‐wide Homeland
Security initiatives, we question whether OLES has achieved the appropriate
balance of resources to address all of its responsibilities. Consequently, we will
review this issue more in‐depth in a future assessment of OLES.

                                                         IMPLEMENTATION STATUS
                                                           Moderate Progress




                                           ‐ 6 ‐
          DAS‐LES SHOULD REVIEW AND REVISE THE POLICIES AND PROCEDURES
   4      WHICH GUIDE THE BUREAUS’ INTERACTIONS WITH OLES. THIS SHOULD
          BE DONE IN CONSULTATION WITH THE BOARD OF ADVISORS.



OLES incorporated the law enforcement directives contained in Part 446 of the
Departmental Manual into a draft Law Enforcement Handbook, which contains
comprehensive guidelines for Department and Bureau law enforcement
operations. Although OLES initially made adequate progress developing this
handbook, we learned that review of the final document has been stalled in the
Solicitor’s Office. We were told that the NPS Solicitor did not forward proposed
revisions until nearly five months after they were due. According to officials in
OLES and the Solicitor’s Office, further delays in reviewing the handbook were
incurred by the lack of an attorney within the Solicitor’s Office who could devote
sufficient time to review the draft handbook. OLES efforts to address the delays
with the Solicitor’s Office have been unsuccessful.

We note that the Review Panel recommended that “reviewing, revising, and
strengthening the Departmental Manual” should be completed “no later than 90
days” following the DAS’ entry on duty. We also noted that the DAS issued a
memo to Bureau heads and the Solicitor’s Office requesting their final comments
on the handbook by February 11, 2005. However, over a year later and nearly
four years since the DAS position has been filled, a formal comprehensive
document has yet to be completed.
                                                        IMPLEMENTATION STATUS
                                                           Inadequate Progress



          THE COORDINATION AND REVIEW RESPONSIBILITY FOR LAW
          ENFORCEMENT AND SECURITY BUDGETS SHOULD BE FORMALIZED AS A
   5      SHARED FUNCTION BETWEEN THE DAS FOR OLES AND THE DAS FOR
          BUDGET AND FINANCE.


OLES implemented a formal budget review process for Bureau law enforcement
and security programs. The DAS works with Department budget staff to
provide budget guidance for Bureau law enforcement and security programs.

Bureaus present proposed law enforcement and security budgets to the DAS‐
LES, OLES and Budget Office through a “hearing” process. This process ensures

                                           ‐ 7 ‐
that priorities set forth in the Department’s budget guidance are adequately
addressed. The Bureaus have found this process to be useful as OLES can better
understand and advocate for needed law enforcement and security funding.

                                                       IMPLEMENTATION STATUS
                                                            Implemented



          EACH BUREAU IS TO ESTABLISH A SENIOR‐LEVEL DIRECTOR FOR LAW
   6      ENFORCEMENT (AND SECURITY). WHEN APPROPRIATE, THE TERM
          “SECURITY” SHOULD BE ADDED TO THE TITLE.


 All of the law enforcement programs established senior‐level positions for law
enforcement and security directors. NWRS initially filled the position of Chief,
Office of Refuge Law Enforcement at a GS‐14 level, but has since elevated it to a
GS‐15.
                                                       IMPLEMENTATION STATUS
                                                             Implemented



          RESTRUCTURE THE REPORTING SYSTEM FOR SPECIAL AGENTS TO CREATE
   7      LINE LAW ENFORCEMENT AUTHORITY.



All applicable law enforcement programs (BIA, BLM, BOR, FWSLE, and NPS)
have created reporting systems establishing Special Agent line law enforcement
authority. While USPP does not have Special Agents, it does have line authority
for all officers.

Although we did not gauge the effectiveness of these programs, we heard
considerable anecdotal information warranting a closer examination of the NPS
Special Agent program.
                                                      IMPLEMENTATION STATUS
                                                           Implemented




                                          ‐ 8 ‐
          FOR ALL REMAINING LAW ENFORCEMENT OFFICERS AND PERSONNEL,
          EACH BUREAU SHOULD PREPARE A PLAN TO ENHANCE THE
          ACCOUNTABILITY OF FIELD LAW ENFORCEMENT OPERATIONS. ALL NON‐
          LAW ENFORCEMENT MANAGERS OF LAW ENFORCEMENT PERSONNEL
   8      SHOULD SUCCESSFULLY COMPLETE A BACKGROUND INVESTIGATION TO
          ENSURE MANAGEMENT INTEGRITY. ALL NON‐LAW ENFORCEMENT
          MANAGERS OF LAW ENFORCEMENT PERSONNEL SHALL COMPLETE “LAW
          ENFORCEMENT TRAINING FOR SUPERVISORS.”


Our previous Progress Report noted that most of the efforts of the Bureaus had
been targeted at acquiring background investigations and management training
for their non‐law enforcement managers overseeing law enforcement programs.
This continues to be true. While we believe that timely background
investigations and proper training are essential for these managers, we also
believe the Bureaus need to re‐focus on the intent of the directive to develop
accountability plans for field law enforcement operations.

Although we were told of one school of thought where accountability goes to the
program as a whole, we believe that this directive encompasses a narrower focus
that is specifically targeted towards non‐law enforcement managers who
supervise law enforcement personnel. There have been some efforts by the
Bureaus to hold field law enforcement managers accountable for their actions.
Most Bureaus’ internal affairs units are responsible for investigating allegations
made against these managers. The director of BLM law enforcement can
suspend a supervisor’s authority over ranger operations even though the
director does not have line authority over these managers. The Bureaus,
however, have failed to develop formal plans to hold these managers
accountable for their actions.
                                                         IMPLEMENTATION STATUS
                                                            Moderate Progress



          DEVELOP LINE‐ITEM BUDGETING FOR LAW ENFORCEMENT ACTIVITIES.
   9      THE DEPARTMENT IS CURRENTLY IMPLEMENTING ACTIVITY BASED
          COSTING (ABC).


While OLES and the Bureaus have strived to develop and implement line‐item
budgeting and ABC activity codes, their ability to execute this directive has been
much harder than originally conceived. OLES and the Bureaus continue to

                                           ‐ 9 ‐
develop law enforcement ABC activity codes that attempt to capture accurate
and relevant information. They have struggled with using this information to
develop meaningful reports for use in making management decisions. The
Bureaus have been variously successful in developing line‐item budgeting for
law enforcement units. We were told that line‐item budgeting is difficult to
implement on a Department‐wide basis, and is dependent on factors outside
Departmental control.

Although developing line‐item budgeting and ABC activity codes has been
difficult, the original concept behind the directive to track and account for law
enforcement expenditures is being partially met through the OLES budget
review process as we noted in Directive 5. However, we continue to be
concerned about law enforcement funding in those situations where law
enforcement funds are not centrally managed. For example, we were told that
law enforcement funding for NPS rangers is included in individual park budgets
and is reviewed by the DAS. Nevertheless, we were also told that park
managers are able to divert budgeted law enforcement funds for other perceived
needs. We will conduct an in‐depth review of this issue in a future assessment of
NPS law enforcement operations.
                                                           IMPLEMENTATION STATUS
                                                              Moderate Progress



          DAS SHOULD CONTROL DESIGNATED OFFICE OF NATIONAL DRUG
          CONTROL POLICY (ONDCP) AND OTHER SPECIAL LAW ENFORCEMENT
 10       FUNDS TO EXERCISE FORMAL REVIEW AND STRONG OVERSIGHT OVER THE
          EXPENDITURE OF THOSE FUNDS.



The original intent of the directive was to have the ability to control ONDCP
funding under program requirements that were in effect at the time the directive
was issued. Subsequently, ONDCP, through the High Intensity Drug Trafficking
Area (HIDTA) program, instituted a process whereby funds are issued, tracked,
and accounted for according to specific HIDTA initiatives. ONDCP has
instituted strict reporting and accounting requirements for Bureaus to be
reimbursed for expended funds.




                                         ‐ 10 ‐
OLES assists the Bureaus with the development of proposals for HIDTA funding,
but is not part of the process in controlling these funds. While not part of the
process in controlling these funds, OLES has routine communications with
Bureau and ONDCP staff regarding these funding initiatives.

                                                       IMPLEMENTATION STATUS
                                                            Implemented



          BUREAUS SHOULD COMPLETE AN ANALYSIS OF STAFFING MODELS AND
  11      METHODOLOGIES.



We recognize that developing and implementing a comprehensive staffing
methodology is difficult, particularly without a centralized system to record law
enforcement statistics. Because of differences in law enforcement programs
between the Bureaus, each Bureau has taken a different approach in developing
their respective staffing methodologies. The Bureaus are in various stages of
completing staffing models with three of them not yet achieving full
implementation.

   •   BIA is in the process of developing a staffing model using the number of
       officers and population size compared to national averages for
       comparable communities.

   •   We were told BLM has completed a staffing analysis that has resulted in
       the reallocation of resources for critical areas and events. However, BLM
       has not been able to develop a comprehensive staffing methodology
       because of a lack of funding.

   •   NPS has conducted Law Enforcement Needs Assessments for each park
       using its Visitor Management Resource Protection Assessment Program
       (VRAP) to calculate park staffing requirements. However, NPS is unable
       to support VRAP methodology and has no certainty that assumptions
       made by the program are correct. We were told NPS is in the process of
       verifying VRAP results.

                                        IMPLEMENTATION STATUS
                             BOR, FWSLE, NWRS, USPP       Implemented
                                  BIA, BLM, NPS         Moderate Progress


                                          ‐ 11 ‐
          EACH BUREAU WILL ASSESS THE EXTENT TO WHICH CORRECT STAFFING
          SHORTAGES IMPACT OFFICER SAFETY. THE BUREAUS AND DAS‐LES
  12      SHOULD COORDINATE EFFORTS TO ADDRESS THE IDENTIFIED SHORTAGES
          IMMEDIATELY.



Senior OLES officials told us that staffing shortages affecting officer safety are
being addressed and their advocacy has resulted in increased staffing levels for
some Bureaus. However, officer safety issues remain due to the remote location
and immense geographical area required to be patrolled by some Bureau law
enforcement officers. The OLES officials also commented that addressing officer
safety issues is a continuing process that will never be completed.

We were told that the Bureaus have addressed staffing shortages through
various means. For example, NWRS conducted a staffing analysis that has
identified the extent and severity of officer shortages, which has helped form the
basis for budget requests for additional law enforcement positions. NWRS has
also implemented a zone officer system to cover law enforcement needs when
officer safety issues arise due to lack of coverage.

BLM law enforcement and State Staff Rangers have worked together to
coordinate staffing to address shortages at high‐recreation sites. BIA district law
enforcement commanders are in the process of reviewing law enforcement
staffing throughout the Bureau in order to reallocate resources among the
different agencies. While progress has been made, we believe comprehensive
staffing models are needed to assist BLM and BIA in fully implementing this
directive.

NPS issued a “no net loss policy” in 2002 requiring parks to fill vacant law
enforcement positions. However, park superintendents can apply for a waiver of
this policy from the Regional Director, thus giving parks some latitude in filling
these positions. We were told that budgetary constraints and other priorities
have prevented some parks from complying with this policy. While NPS does
not centrally track the number of waivers issued, information provided by the
Bureau indicates a minimum of 22 waivers have been issued since 2002.




                                           ‐ 12 ‐
                   Bureau Uniformed Officer Staffing Level Changes
                                    2001-2006
                                                             186%
    200%




    150%




                                     85%
    100%




     50%
                           21%




     0%

                                                      -6%             -3%

             -35%
    -50%
             BIA          BLM       BOR           NPS       NWRS     USPP




                                                 IMPLEMENTATION STATUS
                                          BOR, NWRS, USPP      Implemented
                                           BIA, BLM, NPS     Moderate Progress



           BUREAUS WILL REDUCE DEPENDENCE ON COLLATERAL DUTY AND SEASONAL LAW
 13        ENFORCEMENT OFFICERS.



NPS reduced its dependence on seasonal law enforcement officers from 499 in
2001 to approximately 400 in 2004. NPS was unable to provide the number of
seasonal law enforcement officers being utilized for 2005 and 2006. We were told
that NPS does not control or track commissions issued to seasonal law
enforcement officers from a central location. These commissions are issued by
individual park superintendents. Consequently, NPS can not accurately account
for the number of commissions issued to seasonal officers in the field. We were
also told that NPS no longer issues collateral duty commissions to permanent
employees; however, NPS is unable to state how many collateral duty
commissions still exist.
                                             ‐ 13 ‐
We are encouraged by NWRS’ progress in reducing the number of collateral‐
duty officers. The agency reduced the number of these officers by more than
half, going from 522 officers in 2001 to 208 officers in 2006.

                                                     IMPLEMENTATION STATUS
                                                    NWRS        Implemented
                                                     NPS      Moderate Progress



          THE SECRETARY HAS PLACED RESPONSIBILITY FOR SECURITY POLICY
  14      OVERSIGHT AND COMPLIANCE WITH THE OLES.



The Review Panel observed that “Since the events of September 11th, no single
issue has dominated the American landscape more than security and emergency
preparedness.” Our prior Progress Report noted that OLES hired an Assistant
Director‐Security to provide guidance and oversight of Department and Bureau
security operations. We also noted that OLES had not yet conducted on‐site
security surveys for each of the Bureaus.

While OLES has issued some security guidance to the Bureaus, we were told that
various Homeland Security initiatives have hindered OLES’ ability to oversee
Bureau security programs and limited its progress in developing Department‐
wide security policies. We were also told that OLES’ delay in issuing
comprehensive policy to the Bureaus has in turn impeded the Bureaus from
producing their own respective security policies. Nearly four years later, it still
has yet to conduct full‐scale reviews of Bureau security programs.

                                                         IMPLEMENTATION STATUS
                                                           Inadequate Progress



          THE REVIEW PANEL RECOMMENDS THAT THE NBC (NATIONAL BUSINESS
  15      CENTER) AUGMENT ITS SECURITY STAFF WITH THE APPOINTMENT OF A
          PROFESSIONAL SECURITY MANAGER TO OVERSEE THIS EFFORT.



NBC hired a Chief of Security in 2003 to oversee and manage security operations
for the Main and South Interior Buildings. However, the Chief of Security has a
limited security background and has received little formal training in physical
security measures. The only formal training the Chief of Security has attended is

                                           ‐ 14 ‐
the 10‐day physical security training course at the Federal Law Enforcement
Training Center (FLETC). We plan on assessing the effectiveness of security at
the Main and South Interior Buildings in the future.
                                                        IMPLEMENTATION STATUS
                                                            Moderate Progress



          EACH BUREAU WILL DEVELOP A SENIOR‐LEVEL, FULL‐TIME SECURITY
  16      MANAGER.



All of the Bureaus have established and hired full‐time security managers. We
believe that the GS grade levels for these positions are appropriate, satisfying the
intent of this directive. However, the practical experience of the individuals
placed in these positions varies between Bureaus. For example, BOR’s security
manager has years of experience and a formal background in security
management. BIA’s security manager also has a background in physical
security. Although BLM initially demonstrated reluctance to hire a full‐time
security manager, it has since placed one of its former Special Agents in Charge,
who has a background in security management, in the position of Chief, Security
and Intelligence.

FWSLE and NWRS share a security manager who is responsible for both
programs. We learned that FWSLE/NWRS and NPS filled their security
positions with people who had limited or no experience in security management.
Furthermore, these Bureaus have failed to provide them with adequate training
necessary to fulfill the needs of the position. Due to heightened concerns about
national security over the last several years, we believe that it is imprudent for
FWSLE/NWRS and NPS to rely upon poorly‐trained security managers. This is
especially true for NPS, which has responsibility for the protection of several
National Icons.
                                                IMPLEMENTATION STATUS
                                     BIA, BLM, BOR, USPP             Implemented
                                      FWSLE, NPS, NWRS           Moderate Progress




                                           ‐ 15 ‐
          THE RESPONSIBILITY FOR EMERGENCY PREPAREDNESS SHOULD REMAIN
  17      WITH THE OFFICE OF MANAGING RISK AND PUBLIC SAFETY FOR THE
          INTERIM.



Emergency management responsibilities were officially transferred to OLES on
November 25, 2002. In recognition of the importance of emergency
preparedness, OLES is in the process of changing its name to the Office of Law
Enforcement, Security and Emergency Management.

                                                        IMPLEMENTATION STATUS
                                                             Implemented



          ALL BUREAUS SHOULD ACT PROMPTLY TO ENSURE INTERNAL AFFAIRS
          (IA) COVERAGE. THE OLES SHOULD ESTABLISH AN IA UNIT TO PERFORM
  18      AN OVERSIGHT ROLE AND TO INVESTIGATE BUREAU CASES IF THE
          BUREAU’S CAPACITY IS DEEMED INADEQUATE.


With the exception of BOR, all of the Bureaus have established internal affairs
units. Because there are only six Special Agents in BOR, allegations involving
them are investigated by either BLM or OLES.

We have concerns over the operation of the NPS internal affairs unit.
Discussions with NPS managers revealed that the Bureau continues to struggle
with the structure and funding of this unit. NPS is currently considering several
options for the unit’s structure and operation, including combining the NPS and
USPP internal affairs units.

OLES initially created an Internal Affairs Unit using personnel detailed from the
Bureaus. The OLES Internal Affairs Branch chief was hired in December 2005
after the position had been vacant for nine months. Formal internal affairs
policies and procedures, which were being created in 2003, have still not been
implemented. Although the OLES Internal Affairs Branch appears to have
recently re‐established its priorities and mission, its current ability to provide
adequate oversight or investigate a case for a Bureau internal affairs unit is
limited.



                                          ‐ 16 ‐
Although the basic structure is in place and they now have a unit chief, the DAS
recognized that OLES is “not where they need to be” in terms of developing their
Internal Affairs unit. His goal is to develop a proactive unit that is capable of
providing oversight, guidance, and support for Bureau internal affairs programs.

We did not review the effectiveness of Departmental internal affairs programs;
however, we will be assessing these programs in the future based on information
we heard during this assessment.

                                     IMPLEMENTATION STATUS
                        BIA, BLM, FWSLE, NWRS, USPP      Implemented
                                  OLES, NPS            Moderate Progress



          OLES IS TO REVISE THE DEPARTMENTAL MANUAL (DM) PROVISIONS
 19       ADDRESSING INTERNAL LAW ENFORCEMENT INCIDENT REPORTING AND
          RESULTING INVESTIGATIONS.



The Review Panel recommended, and the Secretary directed, that Departmental
manual provisions addressing internal law enforcement incident reporting be
“completed no later than 120 days after entry by the Deputy Assistant Secretary.”
After three years, OLES is only now in the final stages of issuing interim
guidance to the Bureaus. The release of formal Departmental internal affairs
policies and procedures has been delayed until the Law Enforcement Handbook
is published. As with security policies noted in Directive 4, we were told that
OLES’ delay in issuing comprehensive policy to the Bureaus has prevented some
Bureaus from producing their own respective internal affairs policies.

Although the Handbook has yet to be issued, OLES has made progress by
implementing a methodology for the review of law enforcement related
incidents through the Serious Incident Review Group and Boards of Review.
OLES has also instituted the Internal Affairs Branch Case Tracking System for
the centralized reporting of internal affairs investigations.

                                                      IMPLEMENTATION STATUS
                                                        Inadequate Progress




                                         ‐ 17 ‐
            DAS‐LES SHOULD WORK WITH THE OFFICE OF HUMAN RESOURCES ON
    20      THE DEVELOPMENT OF RECRUITMENT STRATEGIES TO INCREASE THE
            DIVERSITY OF THE LAW ENFORCEMENT WORKFORCE.



OLES contributed to the development of the Department’s diversity plan and has
continued to promote diversity in Department law enforcement programs.
While OLES has not spent much time working with Bureaus on the composition
of their respective law enforcement workforces, the DAS told us that OLES has
encouraged the Bureaus to recruit from a wide variety of candidates and believes
that this is being accomplished.

Our 2001 report described diversity in the Department as “nominal” and
diversity in DOI law enforcement as “abysmal.” We are encouraged by the level
of improvement in DOI law enforcement’s gender diversity statistics. However,
the statistics reflect only a slight improvement in overall diversity in the
Department’s law enforcement programs. 1 While these statistics show progress,
diversity numbers are only nominal, indicating a need for OLES and the Bureaus
to intensify their efforts to recruit and retain a diverse law enforcement
workforce.

                             Gender Diversity Statistics
                                                     Male             Female
                    Group                          2001     2005     2001    2005
                    DOI Workforce                 70.8%    61.9%    29.2%   38.1%
                    DOI Law Enforcement           87.0%    72.7%    13.0%   27.3%




                         Comparative Diversity Statistics
                             White           Black           Hispanic         AA/PI         AI/AN
Group                      2001     2005   2001     2005     2001   2005    2001    2005   2001   2005
DOI Workforce             82.7%    83.0%   6.5%     6.5%     5.3%   5.5%    2.1%    2.3%   3.4%   2.7%
DOI Law Enforcement       87.3%    85.2%   4.1%     5.3%     4.2%   4.6%    2.0%    2.3%   2.4%   2.6%




                                                                      IMPLEMENTATION STATUS
                                                                         Moderate Progress



1
 Statistics provided by the Department’s Office of Civil Rights. These statistics do not include
BIA due to the statutory employment preference imposed upon them.

                                                    ‐ 18 ‐
          OLES SHOULD RESEARCH THE BACKGROUND INVESTIGATION PROCESS
 21       AND DETERMINE WHAT CAN BE DONE TO DECREASE THE TIME IT TAKES TO
          HIRE APPLICANTS.



OLES has completed research on the background investigation process; however,
the slow progress of completing background investigations continues to be an
ongoing, government‐wide problem. The DAS believes that there has not been
significant improvement and that OLES and the Bureaus need to keep working
on this. OLES is actively involved in interagency discussions and has issued
guidance on the hiring process.

We discovered that some Bureaus had hired their own background adjudicators,
which has helped speed up the investigation process. However, delays outside
Bureau control remain.
                                                     IMPLEMENTATION STATUS
                                                        Moderate Progress



          DAS SHOULD DEVELOP SPECIFIC TRAINING RECOMMENDATIONS WITH
          REPORTING AND EVALUATION MECHANISMS THAT FOCUS ON
 22       CONSISTENT TRAINING FOR FULL‐TIME, COLLATERAL AND SEASONAL
          OFFICERS.



FLETC developed the multi‐agency Land Management Police Training program
where individual Bureau basic uniformed officer training programs have been
combined into a standard course. The integration of the various Bureau basic
law enforcement training programs provides for more consistent and efficient
training for these officers.

The proposed Law Enforcement Handbook contains a policy that requires all
part‐time law enforcement employees to be trained to the same level as full‐time
employees beginning in January 2008. We were told that NWRS collateral duty
personnel are required to attend law enforcement training at FLETC.

In contrast, we were told that NPS issues law enforcement commissions to
seasonal personnel based upon their graduation from one of nine schools across
the country that offer seasonal law enforcement training programs. However,

                                         ‐ 19 ‐
there is no standard testing requirement used to ensure that everyone meets the
same certification level.

We were also told that NPS oversight of these training programs is virtually non‐
existent. Reportedly, the only program to have been reviewed in the last five
years was using an outdated syllabus. This school has only been visited once in
its 20‐year history of offering this program. The other programs have not been
reviewed in as much as 24 years. Although we were told commissioned
personnel are involved in the instruction at each of these schools, we also heard
that administrative records and documentation of coursework, attendees and
instructors is severely limited.
                                                         IMPLEMENTATION STATUS
                                                            Moderate Progress



          OLES SHOULD DEVELOP A CONSISTENT DEPARTMENT‐WIDE
 23       CENTRALIZED RECORDS SYSTEM.



OLES has continued to progress with the development of the proposed
Department‐wide Incident Management Analysis and Reporting System
(IMARS) despite delays in the contract solicitation process. After analyzing
responses to the Request for Proposal (RFP), OLES discovered that none of the
vendors were able to fully perform the requirements of the solicitation.
Consequently, the DAS decided to cancel the existing RFP rather than proceed
with an unacceptable product, recognizing there would be a six to nine month
delay. A new RFP is expected to be awarded in mid 2006. Full implementation
of IMARS is anticipated beginning in October 2008.

The development and implementation of IMARS is a significant Department
initiative. We were told that the Office of Management and Budget is supportive
of the IMARS project, recognizing its importance for planning and tracking
performance measurements. Department and Bureau law enforcement officials
alike recognize the need for a centralized Department‐wide records system.

                                                      IMPLEMENTATION STATUS
                                                         Moderate Progress




                                         ‐ 20 ‐
         DAS‐LES SHOULD WORK WITH THE DAS FOR PERFORMANCE
 24      MANAGEMENT TO DEVELOP PERFORMANCE GOALS AND OUTCOME
         MEASURES.



As noted in our previous Progress Report, the Law Enforcement and Security
program was incorporated into the Department’s Strategic Plan for FY 2003‐2008.
OLES has established performance goals and measures for Department‐wide law
enforcement and security programs, which they continue to refine. However,
the lack of a centralized Department‐wide records system prevents the
Department from obtaining the information necessary to measure performance
outcomes for some established goals.
                                                      IMPLEMENTATION STATUS
                                                            Implemented



         DAS SHOULD WORK WITH THE OFFICE OF THE SOLICITOR TO
 25      COORDINATE THE REVISION OF THE INTERAGENCY CROSS DESIGNATION
         AGREEMENTS.



The Interagency Cross Designated Agreement was signed by the Secretary on
June 17, 2004, and distributed to Bureau Law Enforcement chiefs on June 18,
2004. This Agreement allows Bureau law enforcement agencies to support one
another in the enforcement of applicable laws and regulations.

                                                     IMPLEMENTATION STATUS
                                                          Implemented




                                        ‐ 21 ‐
                          CONCLUSION
As we noted in our 2003 follow‐up report, the status of DOI law enforcement is a
“work in progress.” While OLES and the Bureaus have implemented many of
the directives, their progress on other directives has had only moderate success.
Several of these directives—particularly those involving policy, staffing, and
training—will require continuous monitoring and modification as needs change.

The Deputy Secretary for Law Enforcement and Security and his staff have
increased advocacy, prominence, and accountability of law enforcement
programs throughout the Department. The Bureaus have created senior‐level
law enforcement and security positions and established line authority for Special
Agents. OLES has implemented a formal budget review process for Bureau law
enforcement and security programs that ensures priorities set forth in
Departmental budget guidance are adequately addressed.

Although the Department has had successes, there are many areas that still need
attention. Accountability of non‐law enforcement managers for law enforcement
positions reporting to them still has not been adequately addressed. While OLES
and the Bureaus have established Internal Affairs units and developed a
Department‐wide tracking system for reporting internal investigations, the
ability of OLES to assist Bureau Internal Affairs units is limited. NPS still has not
finalized the structure and funding of its Internal Affairs unit. Additionally,
formal Department‐wide law enforcement policies and procedures have yet to be
implemented, partly due, we were told, to a lack of resources within the
Solicitor’s Office.

Standardization of basic training has been implemented for land management
law enforcement programs. However, we are gravely concerned about NPS’ lack
of oversight of the training programs for seasonal officers. Without proper
oversight, there is no assurance that these officers are being adequately trained.
Although NBC and the Bureaus have hired full‐time security managers, the
security knowledge, training, and experience of FWSLE/NWRS, NPS, and NBC
managers is limited or virtually non‐existent. We believe that inadequate
training significantly compromises effective law enforcement and security
programs, resulting in considerable risk to the personnel and assets they protect.
The proper and continuous training of law enforcement and security personnel,
particularly for those people without extensive backgrounds in these areas, is of
paramount importance and cannot be emphasized enough.

                                           ‐ 22 ‐
This assessment was limited to reviewing the status of the Department’s
implementation of the Secretary’s directives. While many accomplishments have
been made from an overall program level, we were also told anecdotal
information indicating that little change has occurred in Bureau field operations.
Our future assessments will further focus on how the implementation of these
directives has impacted Bureau field law enforcement operations.




                                          ‐ 23 ‐
                                        APPENDIX 1
                                STATUS OF THE SECRETARY'S DIRECTIVES
              DIRECTIVE          L   OLES   BIA   BLM       BOR   FWSLE      NPS       NWRS       USPP

1   Create DAS-LES

2   Emergency Protocals

3   OLES Staffing

4   OLES Policy w/ Bureaus

5   Budget Coordination

6   Senior LE Director

7   Line Authority 1811

8   Non-LE Mgr Accountability

9   Line-Item Budgets

10 ONDCP funding

11 Staffing Model

12 Officer Safety

13 Seasonal & Collateral

14 Oversight of Security

15 NBC - MIB Security

16 Bureau Security Manager

17 Emergency Preparedness

18 Internal Affairs

19 LE Incident Reporting

20 Recruitment - Diversity

21 Research Backgrounds

22 Training

23 Centralized Records

24 Performance Goals

25 Cross Delegation


                                                   IMPLEMENTED    MODERATE PROGRESS   INADEQUATE PROGRESS




                                                   ‐ 24 ‐
                                                                            Deputy Assistant Secretary




                                                     Administrative
                                                                                    Director,                   Senior Advisor
                                                       Secretary
                                                                           Law Enforcement & Security




                                                                                                                Administrative
                                               Director's Secretary                                                Officer
                                                     (vacant)



                                Assistant Director
          Assistant Director,                                                                                                                             Assistant Director,
                                   Professional                                        Assistant Director,                       Assistant Director,
         Information Sharing                                                                                                                                 Emergency
                                 Responsibility &                                      Law Enforcement                                Security
              & Analysis                                                                                                                                    Management
                                Policy Compliance
                                     (vacant)




‐ 25 ‐
             Intelligence
             Coordinator         Internal Affairs,               LE Policy                Border/Drug           LE Training         Critical Assets         All Hazards
                                   Coordinator                  Coordinator               Coordinator           Coordinator,         Coordinator            Coordinator
                                                                                                                 (vacant)
                                                                                                                                                                                                          APPENDIX 2




         Intelligence Analyst
                                 Internal Affairs                                                    Southwestern
           (USGS detailee)                                            Policy Analyst                                              Security Specialist
                                                                                                                                                                                OLES ORGANIZATION CHART




                                 Special Agent                                                     Border Coordinator                                       Continuity of
                                                                      (BLM detailee)                                                                        Operations
                                     (vacant)
                                                                                                                                                            Coordinator

         Supervisory Watch       Internal Affairs                 Program Analyst                    Northern Border
              Officer                                                                                                             Security Specialist
                                     Analyst                       (FWS detailee)                     Coordinator                                        Emergency Mgt
                                (NWRS detailee)                       (vacant)                           (vacant)                                       Specialist, (vacant)

                                 Internal Affairs                                                   LE Liaison Indian
                                      Analyst                                                           Country
         Watch Officers
                                (USPP detailee)                                                      (BIA detailee)
             (11)
                                     (vacant)

                                                                                                     Program Analyst
           Secretary                                                                                  (NPS detailee)
                             How to Report 

                 Fraud, Waste, Abuse and Mismanagement 

Fraud, waste, and abuse in government are the concern of everyone, Office of Inspector
General staff, departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:	           U.S. Department of the Interior 

                              Office of Inspector General 

                              Mail Stop 5341-MIB 

                              1849 C Street, NW 

                              Washington, DC 20240 

             Phone:	          24-Hour Toll Free                     800-424-5081
                              Washington Metro Area                 202-208-5300
                              Hearing Impaired (TTY)                202-208-2420
                              Fax                                   202-208-6081
                              Caribbean Field Office                340-774-8300
                              Northern Pacific Field Office         916-978-5630*
             Internet:
             http://www.oig.doi.gov/hotline_form.html
             *Use Western Region Investigations telephone number until further notice




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                           www.doi.gov 
                                          www.oig.doi.gov 
